                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-41A                                   Office of Inspections                                September 2013




                             Inspection of
                       Embassy Vilnius, Lithuania




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                                       1
Context                                                                             2
Executive Direction                                                                 3
Policy and Program Implementation                                                   4
  Reporting, Analysis, and Advocacy                                                 4
  Trade Promotion                                                                   5
  Public Affairs Section                                                            5
  Innovative Practice: Virtual American Corners—“ATMs” That Tell America’s Story    8
Consular Operations                                                                10
  American Citizens Services                                                       10
  Nonimmigrant Visas                                                               10
  Immigrant Visas                                                                  10
  Fraud Prevention Unit                                                            11
  Staffing                                                                         11
Resource Management                                                                12
  Management Operations                                                            12
  Rightsizing and Requests for New Positions                                       13
  Financial Management                                                             13
  Human Resources                                                                  15
  Language Designated Positions                                                    16
  General Services                                                                 17
  Facilities Management                                                            19
  Information Management                                                           19
Quality of Life                                                                    21
  Employee Association                                                             21
  Community Liaison Office                                                         21
  Medical Unit                                                                     21
  Schools                                                                          21
Management Controls                                                                22
List of Recommendations                                                            23
List of Informal Recommendations                                                   25
Principal Officials                                                                26
Abbreviations                                                                      27




                                     i
                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   A multiphase construction project to upgrade the embassy compound has experienced delays
    because of the contractor’s termination for cause. The project is in the process of reaward. In
    its current state, the compound does not meet Overseas Security Policy Board or fire and life
    safety standards.

•   Under a 2009 memorandum of understanding, Embassy Sofia provides basic human
    resources services to Embassy Vilnius. The process is convoluted and inefficient.

•   Embassy Vilnius has five language designated positions at the working proficiency (3/3)
    level. Although such proficiency is useful, embassy staff members rarely hold substantive
    discussions in Lithuanian. Limited use of Lithuanian does not justify the additional 14 to 21
    weeks of training at the Foreign Service Institute that students need to achieve a 3/3 level,
    versus a 2/2.

•   The embassy spends $45,000 a year on rest and recuperation travel for American staff. The
    OIG team questions whether this benefit is justified.



All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between March 25 and April 12, 2013, and in
Vilnius, Lithuania, between May 7 and 24, 2013. Ambassador Robert M. Beecroft (team leader),
Lavon Sajona (deputy team leader), Richard Behrend, David Davison, Patricia Murphy, Shawn
O’Reilly, Donna Roginski, Charles Rowcliffe, Paul Smith, Alexandra Vega, and Timothy Wildy
conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
        Lithuania was founded in the 10th century and has endured occupation by Poland,
Germany, and Russia during much of its history. The Soviet Union annexed Lithuania, along
with its Baltic neighbors Latvia and Estonia, in 1940 and resumed control after the German
occupation during World War II. The United States never recognized this forcible takeover. The
three Baltic States regained their independence with the collapse of the Soviet Union in 1990–91
and quickly restored close relations with the United States.

        Lithuania is slightly larger than West Virginia, with a population of approximately 3
million. Sharing borders with Latvia, Belarus, Poland, and Russia, Lithuania has repeatedly
proved to be a strong and supportive European ally of the United States. It is an active member
of the North Atlantic Treaty Organization (NATO), the European Union (EU), the Community
of Democracies, and the Organization for Security and Cooperation in Europe. As a NATO ally,
Lithuania provides support in Afghanistan.

        Embassy priorities include deepening bilateral ties in security, trade, and investment and
in shared democratic values. The United States and Lithuania have signed an agreement on
bilateral trade and intellectual property protection and a bilateral investment treaty. Two-way
trade totaled approximately $2 billion in 2012. Lithuania participates in the Visa Waiver
Program, which allows Lithuanians to travel to the United States for certain business or tourism
purposes without obtaining a visa.

        Embassy Vilnius staff consists of 48 American direct-hire and eligible family member
positions and 117 local employees. The operating budget for FY 2013 was $14 million. U.S.
assistance to Lithuania during FY 2013 totaled approximately $8 million in military training.

        The embassy compound does not meet Overseas Security Policy Board or fire safety
standards. Planning is underway to implement a Bureau of Overseas Buildings Operations
(OBO) construction project to correct some of these deficiencies.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The OIG inspection coincided with the end of a lengthy transition between the departure
of the previous ambassador in September 2012 and the arrival of her successor 5 months later. In
the interim, the deputy chief of mission (DCM) served capably as chargé d’affaires. Relations
among country team members are informal, collaborative, and effective.

         The Ambassador’s priorities to achieve mission goals are well founded. Drawing on her
strong economic background, she has begun to focus mission attention on economic issues that
coincide with the expected launch of the U.S.-EU Transatlantic Trade and Investment
Partnership and with Lithuania’s EU presidency, which begins in the second half of 2013.
However, front office communications on how to achieve these goals are not always consistent
or clear. The Ambassador responded positively to the inspection team’s suggestions on ways to
improve communication between the front office and other elements of the mission, particularly
in light of the summer 2013 departure of the DCM, public affairs officer, and management
officer. Establishing effective communication and interaction with staff will facilitate
implementation of mission goals as well as a smooth summer transition.

Recommendation 1: Embassy Vilnius should schedule and conduct weekly one-on-one
meetings between the Ambassador and section heads to review planning and reinforce more
open communication between the Ambassador and embassy staff. (Action: Embassy Vilnius)

        The embassy’s FYs 2014–2016 Integrated Country Strategy (ICS) is well aligned with
the embassy’s FY 2015 Mission Resource Request (MRR); 1 both documents are well conceived
and include practical references for achieving mission goals and objectives. Public diplomacy is
integrated effectively in mission strategic planning, and the Ambassador is active in public
appearances and presentations. The embassy’s emergency action plan is complete and current. A
full-scale crisis management exercise is scheduled for June 2013.

    Embassy Vilnius runs an extensive professional development program for entry-level
officers, which includes opportunities for public speaking and support for visits. The program
aims to help officers develop skills outside daily work requirements that will be useful
throughout their careers. The DCM mentors each entry-level officer individually at monthly
meetings.




1
 In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The Mission Resource Request (3-year strategic plan, with shorter annual resource requests)
replaced the Mission Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                           3
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting, Analysis, and Advocacy

        The embassy’s joint political/economic section produces reporting with appropriate
balance between domestic and external issues. Reports of events and individual meetings
typically include well-informed commentary. Lithuania faces strategic choices on energy
security; the section’s extensive coverage has earned appreciation from Washington readers.
Analyses of parliamentary elections and the new government were also well done. The section
chief and staff members show confidence in one another and work well together.

        In April the Ambassador instructed the political/economic section to produce the report
on nonurgent political and economic events on a weekly rather than a daily basis. Although the
daily reports contained useful information, they sometimes relied on press reports and public
statements to address issues that deserved direct engagement with contacts. Furthermore, weekly
reporting is better suited to consolidating relevant information for consumers, uses staff time
more effectively, and facilitates communication with contacts. The OIG team concurred and
encouraged early production of the first weekly report.

        The current reporting plan contains themes relevant to mission goals but does not identify
specific products, individual assignments, and deadlines. A more detailed plan would avoid
overburdening weekly reporting, respond to the Ambassador’s instructions to give more attention
to EU issues, and produce more stand-alone analytical reports developed from sustained
engagement with contacts. The team encouraged the embassy to focus its reporting on matters of
particular interest to Washington, such as Lithuania’s July 1 assumption of the EU presidency
and November 2013 hosting of the EU Partnership Summit.

Recommendation 2: Embassy Vilnius, in coordination with the Bureau of European Affairs,
should revise its political and economic reporting plan to include specific deliverables, staff
responsibilities, and timelines. (Action: Embassy Vilnius, in coordination with EUR)

         The ICS for FYs 2014–2016 comprises three broad goals related to security, economic
prosperity and democracy, and human rights. The security goal includes a variety of objectives,
such as Lithuania’s support for NATO, participation in the alliance’s Afghanistan mission, and
efforts to counter smuggling of weapons of mass destruction. The embassy advances these goals
through security assistance, support for high-level visits, engagement with senior Lithuanian
officials, and public diplomacy. Mission elements, including the political/economic section, the
Department of Defense staff, and the public affairs section (PAS), collaborate effectively with
one another as well as with U.S. embassies in Riga and Tallinn.

        Although political/economic staff has made efforts to support the Ambassador’s
economic and social priorities, including reallocation of staff portfolios, the section has not made
front office goals operational and has missed deadlines. The OIG team suggested that the section
propose a work plan for the Ambassador to approve or amend, so that there is a clear record to
guide the section’s activities.



                                       4
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Political/Economic Section Staffing

        The embassy’s MRR requested a new officer position in the political/economic section to
work on energy issues. The OIG team concurs with the Department of State’s (Department) 2013
rightsizing review, which did not support the request. The section recently reached full staffing
levels following several months of gaps, including in the section chief position. A new
professional associate position has been established, with one or two additional professional staff
members slated to join the section during the 6-month term of Lithuania’s EU presidency. Until
the section has experienced an extended period working at full staffing levels with the revised
work requirements, the embassy will be unable to assess whether staffing is adequate or whether
an addition position is warranted.

Trade Promotion

        Because there is no Foreign Commercial Service representation in Vilnius, the
political/economic section has lead responsibility for bilateral trade promotion. The section
vigorously promotes U.S. products and firms. During the first half of FY 2013, the embassy
reported 69 business outreach events or private meetings with more than 2,000 attendees, as well
as several reimbursable services performed on behalf of the Foreign Commercial Service.
Washington agencies describe the staff as proactive and responsive. The Department funded an
embassy proposal under the Business Facilitation Incentive Fund to promote Lithuanian
investment in the United States. The embassy participated in the Baltic Investors Forum, Life
Sciences Baltic Conference, and the region’s largest wine fair, and cohosted with the foreign
ministry a conference on unconventional energy. Before arriving in Vilnius, the Ambassador
played a key role in establishing the Lithuanian-American Business Council, which is designed
to promote bilateral commercial ties. The Ambassador addressed the American Chamber of
Commerce early in her tenure.

Public Affairs Section

        Few international issues divide the United States and Lithuania, so PAS focuses on
strengthening already positive relations. Public diplomacy is an important element of the ICS,
and PAS takes the lead or is a major player in many mission objectives, especially those dealing
with strengthening civil society. PAS works productively with other embassy offices and earned
high marks in OIG surveys.

Section Management

        The public diplomacy budget of $902,500 is adequate. PAS has stretched it by obtaining
additional support from the Under Secretary for Public Diplomacy and Public Affairs’
Innovation Fund for projects with the Roma community, as well as $100,000 from the
International Task Force on Holocaust Education for teacher-training projects.

       PAS faces staffing challenges. One of the two American positions in the section was
vacant for 6 months. Washington provided interim support, but the section head still had to
shoulder a heavy burden. Equally challenging are the gaps in positions held by young, female
employees, who constitute a staff majority and are entitled to 2 years of paid maternity leave

                                       5
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

under Lithuania’s generous social policies. Although PAS has employed a series of capable
temporary hires, the training of new employees increases the workload for permanent personnel.

        Position descriptions for locally employed (LE) staff vary in quality and accuracy. Some
staff members do less, and others more, than their position descriptions indicate. PAS has not
reviewed position descriptions so that they reflect actual duties as well as the section’s current
and future needs.

       Informal Recommendation 1: Embassy Vilnius should revise position descriptions for
       local staff in the public affairs section.

Media Reporting, Embassy Web Site, and Social Media

        PAS produces a daily media report. The February 2013 arrival of the new Ambassador
brought some important changes to that report, including a much-needed tightening and
refocusing of content to reflect her priorities. Despite the shortened format, the written report
normally comes out at about noon, which means that staff members who do not attend one of
two morning oral press briefings do not have access to any media report until halfway through
their workday. The content of the two oral briefings is largely duplicative. Eliminating one
briefing would allow PAS additional time to prepare for a larger, more substantive briefing and
to disseminate its written media report earlier in the day.

       Informal Recommendation 2: Embassy Vilnius should eliminate the first of its two
       daily press briefings.

        PAS maintains the embassy’s Web site, which meets all relevant guidelines. Most content
is from Washington, with PAS adding reports, articles, and announcements of embassy events
and activities. The site averages more than 2,000 page views a day; pages about visas and job
opportunities are the most popular.

        PAS uses Facebook and YouTube to promote embassy-oriented issues, highlight relevant
media reports, and alert users to upcoming events. PAS puts locally produced clips as well as
excerpts from local television shows and news related to embassy activities on its YouTube site.
One of the most viewed clips was “One Billion Rising,” part of a global campaign about
violence against women that tied in closely with PAS’s multipronged effort on the issue. By mid-
May, the embassy YouTube page had nearly 26,600 views. To target the 70 percent of
Lithuanians who use the Internet, PAS is implementing a solid social media strategy. PAS
recently won approval to participate in the Bureau of International Information Programs’
20/100/100 program, which provides 20 selected embassies with advice on and guidance for
increasing social media numbers by 100 percent in 100 days.

Educational and Cultural Programs

        PAS administers a variety of exchange programs. The biggest is the Fulbright scholarship
program, with an FY 2012 budget of $352,600. Lithuania currently provides just more than
$18,000 of in-kind support for Fulbright exchanges. PAS is working with Lithuanian authorities
to obtain direct financial support. The decreasing Fulbright budget has meant fewer long-term
and more short-term exchanges, a pattern likely to continue absent additional resources.
                                       6
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The embassy has a small, well-managed International Visitor Leadership Program. In FY
2012 there were 11 participants; in FY 2011, 9. Program nominations are clearly in line with ICS
goals. Among program alumni are many prominent Lithuanians, including the country’s current
president.

        PAS has a limited budget for the U.S. Speaker and Specialist Program; funding in FY
2012 dropped 50 percent from FY 2011 levels. Nonetheless, by working with neighboring Baltic
posts and focusing on ICS goals, PAS scored some significant achievements, particularly
regarding violence against women. PAS-sponsored visiting experts helped Lithuania draft a
domestic violence law that provided additional protection for victims and for the first time gave
police authority to remove abusers immediately from a home.

Public Diplomacy Platforms

        The embassy’s Information Resource Center has two employees, one full time and one
part time. The center is open to the public 25 hours a week and at other times by appointment.
The center has a lending library with 6,000 members and responds to 100–200 phone and email
queries per month, a level that has risen even as foot traffic fell after the center’s move to the
embassy compound in 2008. Clearing large groups into the embassy compound for public
diplomacy events can be problematic, as addressed in the classified annex to this report. There
were 2,184 visitors to the center in 2011 and 2,580 in 2012. Despite a lower volume of traffic
and competition from public and university libraries with larger holdings, the center is still a
useful one-stop shop for information on the United States and for direct contact with Americans.

        Lithuania’s one American Corner is in a public library in Siauliai, the country’s fourth
largest city. The Corner sponsored 76 events in 2012 that reached more than 2,300 people,
excluding patrons using its book and digital video collections. PAS staff visits regularly. To
provide information about the United States elsewhere in the country, PAS established three
virtual American Corners in mobile kiosks about the size of automated teller machines (ATM),
which the OIG team regards as an innovative practice.




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Virtual American Corners—“ATMs” That Tell America’s Story

Innovative Practice: Virtual American Corners—“ATMs” That Tell America’s Story

Issue: PAS Vilnius lacked the funding to establish additional American Corners to expand its
outreach and provide up-to-date and interesting information about the United States.

Response: The embassy teamed up with a local computer hardware and software company to
develop InfoUSA terminals, interactive platforms about the size of an ATM that can be moved
easily from site to site and reach host country audiences in a variety of venues. PAS placed the
kiosks in a shopping center in Vilnius, a public library in northeastern Lithuania, and at an indoor
water park in southern Lithuania. Each kiosk is a simple touch-screen computer preloaded with
information and videos about U.S. history, culture, geography, and people (including noted
Lithuanian Americans), as well as basic travel and visa regulations and live links to the
embassy’s Facebook page. PAS staff translated all content into Lithuanian. The only expenses
for kiosk maintenance are electricity and Internet connection utilities. Operational 24/7, the
kiosks—with the proper connection—can also project onto a wall a larger image of what is on
the computer screen, allowing for greater audience participation. PAS makes kiosk content
available on computer discs, which it encourages school groups visiting the Information
Resource Center to take home and use.

Result: PAS Vilnius has greatly expanded its outreach efforts at minimal cost. From their
opening in late 2012 to mid-May 2013, the InfoUSA kiosks attracted a total of 110,000
individual visitors, with nearly 90 percent of them logging on at the shopping center and the
water park. The cost was 41 cents per visitor, with the unit cost projected to decline as the
number of visitors rises.

Grants Management

        In FY 2012 PAS spent $452,800 on 108 grants with funds from its own budget and from
other sources; in FY 2011 the corresponding figure was 116 grants worth $475,390. PAS
advertises grant availability on the embassy Web site and conducts an open competition for
projects that relate to a variety of ICS goals. PAS recently reoriented its cultural grants program
to focus more on partnerships with local groups rather than on full-fledged sponsorships of
visiting artists. The OIG team concurs with this decision.

        The inspectors examined a random sample of grants files and found them in relatively
good order, though there were occasional mistakes in citing the correct statutory authority. More
problematic was the number of grants that, although linked to the broad ICS theme of promoting
tolerance, did not have the required link to American culture. Examples include one grant to help
produce the second volume of a catalogue on synagogues in Lithuania and another to assist a
Lithuanian theater group in mounting a play in Vilnius about the local Jewish community.
Providing staff with additional grants training, particularly with respect to funding requirements,
would alleviate the problem.

Recommendation 3: Embassy Vilnius should implement a policy requiring American officers
and the grants coordinator in the public affairs section to take grants courses offered by the
Foreign Service Institute. (Action: Embassy Vilnius)
                                                  8
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        PAS officers and staff review open-competition grants. Some applications concern
subjects of interest to other embassy elements, particularly the political/economic section.
Though PAS does confer with political and economic officers, having formal political/economic
representation on the grants awards committee would provide PAS with additional insight on
grant applications and lend added credibility to the grants process.

       Informal Recommendation 3: Embassy Vilnius should include officers and locally
       employed staff from other sections on the public affairs section’s grants award
       committee.




                                      9
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Consular Operations
        The consular section provides efficient, professional service to American citizens and
foreign nationals seeking consular and visa assistance. The consul provides excellent training for
and guidance to the vice consul and staff. Close cooperation with consular sections in
neighboring Baltic countries and Belarus increases the section’s effectiveness. For example, the
consular leadership day observance is regional (hosted this year in Vilnius) and provides a venue
to share information about regional trends. The waiting room and consular entrance are attractive
and have adequate space, but the consular office area has no room for growth. Should the
workload continue to grow to the point where additional staff is required, space will become an
issue.

American Citizens Services

         Although American citizens services cases are few in number, they can be complex and
time consuming. The unit handled 198 passport and citizenship cases and 396 special consular
services cases in FY 2012. The unit handles most cases quickly and well. American citizens
resident in Lithuania generally do not contact the embassy except in emergencies, as Lithuanian
law prohibits dual nationality. If the government of Lithuania discovers that a Lithuanian citizen
has another nationality, they begin proceedings to strip that individual of their Lithuanian
citizenship, pension, and other benefits. Therefore the American citizens services workload is
lighter than that in other countries in the region.

Nonimmigrant Visas

        Lithuania participates in the Visa Waiver Program, so most Lithuanian citizens do not
need nonimmigrant visas to travel to the United States. Most nonimmigrant visa applications are
made by Lithuanians applying for exchange visitor visas to participate in the Summer Work
Travel Program or by Belarusians applying for various nonimmigrant visas. In FY 2012, the
section adjudicated 5,532 nonimmigrant visas. The number of nonimmigrant visa applications
from Belarusians has been growing annually, but staffing is adequate to manage the current
workload. The consul handles the few visa referrals strictly according to the worldwide visa
referral program, with meticulous referral recordkeeping.

Visas Viper

       The DCM holds Visas Viper meetings monthly, and the consular section submits reports
on time. There have been several submissions during the past year.

Immigrant Visas

        The immigrant visa unit competently handles 300 to 400 immigrant visas per year.
Family-based immigration cases are often complex. Over half of the immigrant visa workload
consists of diversity visa cases, which makes workload unusually variable.




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Fraud Prevention Unit

        The prevalence of fraud is low, especially in Lithuanian visa applications. Belarusian
cases are more difficult to assess. The fraud prevention staff works hard, with a high level of
competence, to evaluate cases for fraud. In FY 2012 only 17 of 132 visa fraud cases were
confirmed as fraud; most of the remaining cases were inconclusive. The unit would benefit from
more frequent interaction with the Directorate of Fraud Prevention Programs in the Bureau of
Consular Affairs to develop targeted validation studies, make optimal use of available online
tools, and acquire a better understanding of larger regional fraud trends.

Staffing

        With two American officers, two half-time consular assistants, and six LE staff members,
the section is adequately staffed. The vice consul encumbers a rotational position, spending only
1 year in the consular section before rotating to the political/economic section. The vice consul
supervises the nonimmigrant and immigrant visa units and evaluates the performance of three of
the six LE staff members. The vice consul must also be conversant with the complex immigrant
visa and American citizens services portfolios. By the time the vice consul has mastered the
details of the job, the officer rotates to the political/economic section and a new vice consul, who
has spent the first year in the political/economic section, begins training. This arrangement is
disruptive and not conducive to efficient functioning of the section.

Recommendation 4: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources and the Bureau of Consular Affairs, should eliminate the rotation of
Embassy Vilnius consular positions 30-010126 and 14-022002. (Action: EUR, in coordination
with DGHR and CA)

         Section staff conducts interviews in English for Summer Work Travel Program
applicants, for whom English language competency is required. These applicants made up 21
percent of the nonimmigrant visas cases in FY 2012. During the same timeframe, 38 percent of
the remaining nonimmigrant visa applicants at Embassy Vilnius were from Belarus, and an
additional 450 maritime crew members from the adjacent Kaliningrad region of Russia applied
for visas in Vilnius. Because most of these applicants did not speak English, translators had to
assist during interviews. The consular chief is appropriately trained in Lithuanian, which
facilitates contacts with the Lithuanian Government and other officials, although full
professional competency is not required. However, neither the consul nor vice consul speaks
Russian. Designating the vice consul position as a Russian-speaking officer would reduce the
current dependence on translators during interviews. The OIG team also counseled section staff
on the benefit of enrolling future vice consuls in a brief, introductory course in social Lithuanian.

Recommendation 5: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources and the Bureau of European and Eurasian Affairs, should designate the vice
consul position at Embassy Vilnius as a Russian-speaking position. (Action: CA, in coordination
with DGHR and EUR)




                                        11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
            Agency                    U.S.       U.S.           Foreign      Total   Total Funding
                                     Direct-    Local-          National     Staff     FY 2012
                                    Hire Staff Hire Staff        Staff*
Department of State
 Diplomatic and Consular                18             1            7         26          $1,493,874
 Programs
 ICASS (Traditional, OBO,               2              5           78         85          $4,348,711
 and Language Designated
 Positions)
 Public Diplomacy                        2                          9         11            $736,971
 Diplomatic Security                     1             –            9         10            $486,243
 (Surveillance Detection and
 Residential)
 Marine Security                         6                          3           9           $193,150
 Representation                          –             –            –           –            $29,700
 OBO                                     4             –            2           6         $1,737,752
 Machine Readable Visas                  2             1            6           9           $148,810
 (Consular Affairs)
Defense Attaché Office                   4             –            1           5           $331,642
Office of Defense                        2             –            2           4         $4,450,000
Cooperation*
Foreign Commercial Service               –             –            –           –             $2,714
Administration (School                   –             –            –           –            $82,800
Grants)**
Agriculture                              –             –            –           –


Totals                                  41             7         117         165         $14,042,367
Source: Embassy Vilnius.
*Defense Security Cooperation Agency/U.S. European Command foreign assistance funding used
through invitational travel.
**School (American International School of Vilnius) grants management: $54,800, security grant;
$28,000, regular grant). All grants were issued by Washington.

Management Operations

        Embassy Vilnius provides excellent customer service. In 2013 embassy staff received
International Cooperative Administrative Support Services (ICASS) scores of above 4 (on a 1–5
scale) in all areas except copier services. These scores were higher than those of other embassies
in the Bureau of European and Eurasian Affairs (EUR) and higher than world averages. In OIG’s
customer satisfaction survey, staff gave high marks for management services. The management
                                                  12
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

officer provides good leadership and mentoring to American and LE staff. Communication is
effective and office morale is good. Management units work cooperatively

        A general services officer, a facilities management officer, 2 information management
(IM) officers, and 48 LE staff members support the management officer. The management
section lost 10 LE staff positions during a 2008 reduction in force.

       In March 2013, prior to the OIG inspection, a team from the Frankfurt Regional Support
Center conducted a review and found procedural shortcomings in some management areas. The
management staff is in the process of correcting Frankfurt’s identified deficiencies.

Rightsizing and Requests for New Positions

        Since the 2008 OIG inspection, the number of U.S. direct hires has remained constant at
38 positions. LE staff was reduced by a net of five positions. In the Vilnius 2013 rightsizing
review, the Department’s Office of Management Policy, Rightsizing, and Innovation (M/PRI)
supported the creation of two U.S. direct-hire and five LE staff positions. The U.S. direct-hire
positions consist of a consular officer and a Defense attaché office position. The LE staff
positions include a facilities position, a human resources assistant, and three laborer positions.
The OIG team does not support the addition of these positions at the current level of operations.

        M/PRI did not support the embassy’s MRR request for an economic officer position,
assistant regional security officer, and combined financial management and human resources
officer position. The OIG team also does not support the addition of an economic officer position
and a combined financial management/human resources officer position. However, the team
does concur with the Bureau of Diplomatic Security and Embassy Vilnius on the need for an
assistant regional security officer position, which is discussed in the classified annex to this
report.

Financial Management

       The management officer also serves as the financial management officer and supervises
five LE staff members. In the past three MRRs, the embassy requested a combined financial
management officer/human resources officer position. EUR did not support any of the embassy’s
requests. Nevertheless, EUR has funded the position through ICASS for the past three FYs at
$65,000 per year. Because EUR did not rescind the funds, the embassy used the funds or carried
them over to the next year. EUR also allocated to the embassy a one-time amount of $70,000 in
2011 to fund furniture and fixtures for this unapproved position. In the 2013 Vilnius rightsizing
review, M/PRI did not support adding this position. The financial management office plans to
increase the number of vouchers it sends to the post support unit in Sofia for processing, which
should alleviate some of the office workload and make the requested position unnecessary.

Recommendation 6: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of the Comptroller and Global Financial Services, should
remove the $67,500 requested for the combined financial management officer/human resources
officer position from the mission FY 2013 International Cooperative Administrative Support
Services target budget. (Action: Embassy Vilnius, in coordination with EUR and CGFS)

                                       13
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

International Cooperative Administrative Support Services

        There are two IM positions: an IM officer and an IM specialist. Both are program funded.
About 40 percent of their work is devoted to program activities and 60 percent to ICASS. On
January 9, 2013, the ICASS Interagency Group based in Washington addressed the
categorization of IM positions. The working group chairperson explained that informal ICASS
policy is that the first IM position is always program funded and the second one is ICASS
funded. In the case of Vilnius, there are two information officers who provide 60 percent ICASS
support, but neither is an ICASS employee. In the 2013 Vilnius rightsizing review, M/PRI also
recommended that one of the IM positions transition to ICASS to distribute costs evenly among
agencies receiving IM support.

Recommendation 7: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of the Comptroller and Global Financial Services, should
convert one information management position in Vilnius to an International Cooperative
Administrative Support Services position. (Action: Embassy Vilnius, in coordination with EUR
and CGFS)

Representation

        In FY 2012 the front office spent 99 percent of all representational funding, leaving the
political and economic office with only 1 percent and management, consular, and regional
security with nothing. In March 2013 the Ambassador agreed to allocate $5,000 to other embassy
sections and asked for a representation plan from each.

       Informal Recommendation 4: Embassy Vilnius should implement the approved
       representation plans submitted by embassy section chiefs.

Utility Usage

        The embassy’s initiative to achieve energy savings has become dormant. Each individual
was to receive information about his or her energy usage on a regular basis, with the aim of
reducing utility expenses. However, the embassy has not followed through. In FY 2012 the
embassy spent more than $350,000 on utility expenses. The green initiative is a good one and
deserves to be resurrected and realistic goals established to reduce costs.

       Informal Recommendation 5: Embassy Vilnius should implement a plan to reduce
       utility expenses.

Valued-Added Taxes

        American employees’ personal value-added tax reimbursements were omitted from the
previous retail price submission report. In Lithuania, diplomatic missions qualify for a value-
added tax exemption on official and personal purchases. The value-added tax reimbursement is
21 percent, and additional excise taxes are reimbursed on some purchases such as alcohol and
fuel. The amount of personal reimbursements is significant. From October 2012 through
February 2013, more than $35,000 was remitted to American employees, which equates to about
$84,000 annually.
                                       14
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 6: Embassy Vilnius should include information regarding
       value-added tax reimbursements on its next scheduled retail price submission report, as
       required by new Department of State regulations.

Human Resources

        Human resources staff includes an LE human resources assistant and an administrative
clerk who spends approximately 50 percent of her time on human resources. The management
officer is the de facto human resources officer and interfaces regularly with the regional human
resources staff based at the Frankfurt Regional Support Center.

       As part of a 2008 pilot, Embassy Sofia became a processing center for some of Embassy
Vilnius’s human resources activities. Under a 2009 memorandum of understanding, Embassy
Sofia provides basic services: maintaining the post staffing pattern and preparing routine arrival,
departure, and travel messages. American staff services include maintaining post position
schedules; providing health, retirement, and Thrift Savings Plan information; and making
adjustments to allowances. LE staff services include position classification, performance
management, and processing of personnel actions.

        Although EUR and the embassy have both touted the pilot as a best practice, the OIG
team found the process to be convoluted and inefficient. Some Vilnius employees have
expressed frustration about the lack of a face-to-face relationship with the service provider. The
process only works as well as it does because of the positive relationship between human
resources staff at Embassies Sofia and Vilnius that has developed since 2009. Noted
inefficiencies include the following:

           •   Embassy Sofia’s combined financial/human resources officer supervises the Sofia
               human resources employees responsible for supporting Embassy Vilnius but is
               not included in the supervisory chain of command.

           •   Embassy Sofia performs position classification using the mission classification
               system, but the Frankfurt Regional Support Center reviews and approves the
               position classification.

           •   Embassy Vilnius sends most personnel actions via email. Embassy Sofia formats
               the personnel actions in proper cable form and then sends them back to Embassy
               Vilnius for forwarding.

           •   Although the 2009 agreement is between Embassies Vilnius and Sofia, the
               Frankfurt Regional Support Center has a major role in the arrangement.
               Nevertheless, Frankfurt is not included as a signatory on the agreement.

        In an October 2012 trip report, the Frankfurt Regional Support Center recommended that
this agreement be reassessed and that the human resources function be moved back to Embassy
Vilnius. The embassy has not reviewed or reassessed the memorandum of understanding since its
signing in 2009. Embassy Vilnius and Sofia staff members have not exchanged visits since 2009.


                                       15
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 8: Embassy Vilnius, in coordination with Embassy Sofia, the Frankfurt
Regional Support Center, and the Bureau of European and Eurasian Affairs, should transfer
human resources processing services back to Embassy Vilnius. (Action: Embassy Vilnius, in
coordination with Embassy Sofia, Frankfurt RSC, and EUR)

Language Designated Positions

        Embassy Vilnius has 11 language designated positions across several sections: five at the
3/3 level and six at the 2/2 level. With a population of about 3 million, Lithuanians recognize
that their highly complex language is not widely spoken and appreciate foreigners’ attempts to
converse in it. Although working proficiency in Lithuanian is useful, employees in language
designated positions conduct their business in English. Typically, LE staff members serve as
interpreters in cases where Lithuanian is required. No other embassy in Vilnius requires
Lithuanian-language proficiency. The limited use of Lithuanian does not justify the additional 14
to 21 weeks of training at the Foreign Service Institute for students to reach the 3/3 level.
Reclassifying five positions from 3/3 to 2/2 would save the Department, on average, $100,000
every 2 years. Embassy staff members have the opportunity to improve their proficiency locally
by participating in the embassy language program, and many do. Embassy Vilnius agrees with
the OIG team’s assessment.

Recommendation 9: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs, the Bureau of Human Resources, and the Foreign Service Institute, should
reclassify language designated positions from the 3/3 proficiency level in Lithuanian to the 2/2
level. (Action: Embassy Vilnius, in coordination with EUR, DGHR, and FSI)

Local Employee Association

        The most pressing concern among LE staff members is the viability of the Lithuanian
pension system. Local news articles have reported that the state pension administrator has used
pension funds for unrelated purposes, and there is speculation that the pension system could
become bankrupt. If this occurs, LE staff members will likely lose their contributions. In
addition, LE staff believes that the pension amount is insufficient to live on. On a positive note,
their medical insurance annual reimbursable amount was increased recently. There are other
retirement options that the embassy could pursue either to replace or supplement the existing
plan that would provide employees with the security they deserve and prevent erosion of
otherwise good morale.

Recommendation 10: Embassy Vilnius, in coordination with the Bureau of Human Resources,
should explore establishing an offshore retirement plan for locally employed staff. (Action:
Embassy Vilnius, in coordination with DGHR)

Locally Employed Staff Evaluations

         As of May 2013, seven LE staff evaluations were seriously delinquent. One evaluation
was 15 months overdue. There were no records showing that supervisors were held accountable
for late submissions. Embassy Sofia is responsible for controlling and monitoring the timely
submission of LE staff evaluation reports, which are vital for employee morale and professional
development.
                                        16
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 7: Embassy Vilnius should establish a procedure whereby
       supervisors who submit late evaluations on locally employed staff have this fact placed in
       their own evaluation reports.

Rest and Recuperation Travel

        In May 2012 the Bureau of Administration, Office of Allowances reviewed embassies
and constituent posts receiving rest and recuperation travel. As part of the review, the bureau
recertified 12 embassies to continue receiving this benefit, including Vilnius. Notwithstanding
this recertification, the inspectors found several discrepancies between the April 2012 hardship
differential questionnaire summary report and the community liaison office’s semiannual activity
reports. The hardship differential report states that “public transportation is poorly maintained
and unreliable,” whereas the community liaison report states, “public transportation in Vilnius is
reliable, safe, and inexpensive.” The hardship report further states that “permanent housing is
inadequate,” whereas the community liaison report states, “housing does not affect the overall
quality of life of people at post.” Housing received an ICASS score of 4.56 on a 5-point scale.
On OIG’s survey, American officers gave the suitability of housing a 4.58 score on the same
scale. Several other contradictions exist regarding living conditions, transportation, and food.
The OIG team questions whether rest and recuperation is necessary for Embassy Vilnius
American staff. Embassy Vilnius spent $45,000 on rest and recuperation travel in FY 2012.

Recommendation 11: Embassy Vilnius should revise its hardship differential report to reflect
accurate living conditions for American staff and submit the report to the Bureau of
Administration for a determination on whether rest and recuperation travel benefits are still
warranted. (Action: Embassy Vilnius, in coordination with A)

General Services

       The general services unit capably handles customs and shipping, housing, motor pool,
procurement, personal property management, and travel operations. A second-tour general
services officer provides good leadership to 10 LE staff members.

Procurement

        Three indefinite delivery contracts for shipping services, each totaling about $45,000, do
not include the mandatory Federal Acquisition Regulation clause 52.222-50 (Combating
Trafficking in Persons). The procurement agents state that the clause was not included in earlier
overseas contract models. The Federal Acquisition Regulation states that the clause must be
included in all U.S. Government contracts. The procurement unit will recomplete these contracts
on June 14, 2013, and will include the appropriate trafficking in persons clauses at that time.

       Informal Recommendation 8: Embassy Vilnius should include Federal Acquisition
       Regulation clause 52.222-50 pertaining to trafficking in persons in all contracts.

        The procurement unit does not have a written standard operating procedure for
unclassified and secure procurements. This deficiency was identified by a Frankfurt Regional
Support Center review team but has not been resolved. An unclassified and secure procurement
policy is important to avoid misunderstanding about how to procure items for classified areas.
                                       17
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 12: Embassy Vilnius should issue an unclassified and secure procurement
policy and post it on the embassy SharePoint site. (Action: Embassy Vilnius)

        The contracting officer has not properly designated contracting officer’s representatives
for seven contracts. According to 14 Foreign Service Handbook (FAH)-2 H-143.2, the
contracting officer is responsible for preparing a contracting officer’s representative delegation
memorandum that outlines the scope of the representative’s authority to act on behalf of the
contracting officer, including duties, responsibilities, and prohibitions. The contracting officer’s
representative function is critical for monitoring the receipt of Department-contracted goods and
services and for maximizing the effectiveness of contractor support.

Recommendation 13: Embassy Vilnius should prepare a contracting officer’s representative
delegation memorandum and include this memorandum in all contracts. (Action: Embassy
Vilnius)

        Four employees acting as contracting officer’s representatives have not received training.
Regulation 14 FAH-2 H-143.1 states that all contracting officer’s representatives must be
certified and take 40 hours of Department-approved training before assuming their duties. Lack
of proper training diminishes the effectiveness of representatives and undermines the purpose of
this important function.

Recommendation 14: Embassy Vilnius should implement procedures requiring that all
designated contracting officer’s representatives be certified and take 40 hours of Foreign Service
Institute mandatory training. (Action: Embassy Vilnius)

        Some contract files lack the memorandum appointing the contracting officer’s
representative and the contracting officer’s training certification. Letters documenting contractor
performance are also absent. The Frankfurt Regional Support Center reviewed several purchase
order files and also found missing documentation, including technical evaluations, sole source
justifications, and cost/price analyses. Such documentation is important for resolving contract
disputes and performance issues.

Recommendation 15: Embassy Vilnius should conduct periodic reviews of its contract,
purchase order, and blanket purchase order files to determine whether they contain required
documentation and update the files as necessary. (Action: Embassy Vilnius)

       The procurement unit does not have a formal acquisition plan. According to 14 FAH-2
H-320 guidelines, acquisition planning is the key to using funds effectively and accomplishing
program objectives economically. The plan is also helpful in establishing lead times for
procurement actions and requiring offices.

       Informal Recommendation 9: Embassy Vilnius should create an acquisition plan for FY
       2014.

Personal Property Management


                                        18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Despite the absence of a warehouse, the personal property management section does an
adequate job of managing nonexpendable and expendable inventories valued at about $3.1
million. Shortages are low, at 0.56 percent. In 2012 the section implemented a furniture pool.
The Defense attaché office elected not to join. Although the Department strongly encourages all
agencies to join the furniture pool to save cost and increase efficiency, participation is not
mandatory. OBO and the Defense attaché office maintain separate warehouses.

Warehousing

        The general services unit does not have a warehouse. The unit stores nonexpendable and
expendable inventories in offices in the management and public affairs buildings deemed unsafe
for personnel. The unit also stores some items in an on-compound garage. Although this
arrangement is cost effective because the embassy does not incur lease costs, it is not ideal.

       Informal Recommendation 10: Embassy Vilnius should explore other warehousing
       alternatives, including leasing a single warehouse for all agencies, using the expedited
       logistic program, and reconfiguring current space use for warehousing.

       Informal Recommendation 11: Embassy Vilnius should dispose of and auction old and
       obsolete inventory items.

Facilities Management

       An experienced facilities manager effectively maintains two U.S. Government-owned
properties: the 5-acre embassy compound (chancery, management building, public affairs
building, and Marine house) and the chief of mission residence.

        A multiphase major rehabilitation project totaling an estimated $48 million is planned.
Phase one, completed in October 2010, was a $15 million partial chancery renovation and
consular section addition. Phase two is a $23 million project to add an additional floor to the
chancery. Phase two has been delayed because the contractor was terminated for cause. The
project is in the process of reaward, and the completion date is unknown. Phase three is an $11
million project to renovate other embassy compound buildings, including the management
building, public affairs building, and Marine house. This project phase has not been awarded.
The overall project is intended to correct current fire and life safety, heating, ventilation, and air
conditioning system deficiencies and is also discussed in the classified annex to this report.

        The October 2011 OBO Safety, Health, and Environment Management report identified
107 issues. There are still 45 uncorrected deficiencies, all of which are to be addressed in the
multiphase rehabilitation project. As previously identified in the Frankfurt Regional Support
Center report, the facilities manager has not received post occupation, health, and safety officer
training.

       Informal Recommendation 12: Embassy Vilnius should provide the facilities manager
       with post occupation, health, and safety officer training.

Information Management

                                        19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The embassy’s IM program currently meets the needs of all users and provides the
appropriate level of information systems security. IM services received excellent customer
reviews both in the most recent ICASS ratings and in OIG survey questionnaires. Two American
officers, an IM officer, an IM specialist, and five LE staff assistants support the embassy’s
unclassified and classified systems, diplomatic post office and pouch services, and telephone
operations. The unclassified OpenNet system consists of 15 servers with153 workstations, and
the classified system network has 5 servers with 23 workstations.

        The IM officer arrived at the embassy 10 months ago. At that time, a number of IM areas
had been neglected by previous management, including out-of-date software and hardware
inventories, lack of access control procedures, and the accumulation of obsolete information
technology property. The IM officer established priorities to address the most critical issues first.
At the time of the inspection, access control procedures were in place and inventories for
software and hardware were up to date.

       The IM officer recently completed an information technology contingency plan and has
complied with all recommendations from the 2012 computer security assessment. The embassy
expects to replace its Meridian 11c telephone system with a new system during the upcoming
OBO renovation project. Both of the American IM positions are currently fully funded from the
embassy program budget, even though they provide support to ICASS elements within the
mission. This issue is addressed in the Resource Management section of the report.

Inventory Control

        The embassy has excess information technology inventory pending disposal. The
inventory has built up over the years in a number of areas within the embassy, including
corridors. Competing priorities have prevented the IM officer from addressing this matter, which
the officer plans to resolve with the addition of part-time staff from the summer intern program.
According to 14 Foreign Affairs Manual (FAM) 427.1, property that is no longer needed by a
post should not be allowed to accumulate in office spaces. Transferring the excess equipment
will streamline property records and reduce the potential threat of loss or mishandling.

Recommendation 16: Embassy Vilnius should dispose of excess information technology
property and update property inventory records. (Action: Embassy Vilnius)

Dedicated Internet Networks

        Embassy Vilnius has nine Dedicated Internet Networks (DIN) but has not registered most
of them with the Bureau of Information Resource Management as required by 5 FAM 872.2.
There are no standard operating procedures for maintaining the networks or clear justifications
for their use, such as for the three DINs that serve the chief of mission residence. Lack of
appropriate management and security of DINs can potentially expose government-owned computers
to vulnerabilities.

Recommendation 17: Embassy Vilnius should inventory and consolidate all Dedicated Internet
Networks and register them with the Bureau of Information Resource Management. (Action:
Embassy Vilnius)

                                        20
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Quality of Life
       Staff morale is high. The region offers abundant travel, sightseeing, cultural, and sports
options. Vilnius has good shopping, nightlife, and restaurants. The most common complaints
among American officers and families are about Vilnius’s long, cold, and dark winters and the
uneven quality of local medical services. Officers currently receive a 20 percent cost of living
adjustment, a 5 percent hardship differential, and two rest and recuperation breaks for serving a
3-year assignment.

       On OIG’s survey, officers scored all 18 quality of life categories above 4, indicating a
high degree of satisfaction. There is strong support for the community liaison office and the
medical unit.

Employee Association

         The employee association was established only recently. The Department’s Office of
Commissary and Recreation Affairs signed the charter in April 2013. The goal of the association
is to raise money to support community liaison office activities. The association has established a
business plan that it is in the process of implementing. To maintain proper internal controls, it is
important that the association not allow the community liaison office to handle association funds.

Community Liaison Office

       The community liaison office delivers excellent services and received high scores on OIG
questionnaires. Each of the two co-coordinators works 20 hours per week. Both have taken
required training and attend meetings of the housing board, emergency action committee, post
employment committee, and country team.

Medical Unit

        The medical team, including a regional medical officer-psychiatrist, a regional medical
officer, an LE staff physician, and an LE staff nurse provide quality care to the mission
community. The regional medical officers based in Moscow and Warsaw make quarterly visits.

Schools

        There are no issues with [Redacted] (b) (5), [Redacted] (b) (6)    . Deficiencies
found in the Department’s May 2011 regional education officer report were resolved. Parents are
satisfied with the school’s curriculum and activities.




                                       21
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The annual chief of mission controls statement of assurance, dated July 20, 2012,
identified no material weaknesses or reportable conditions. The management controls
coordinator provided a list of 2012 reviews performed to support the statement of assurance. The
coordinator discussed the results of the risk assessment and management controls review with
section heads and the Ambassador.

Cashiering

       The inspector observed an unannounced cash verification and found the cashier’s
                                                      [Redacted] (b) (5)
accountability to be in balance. The cash advance of                     is adequate to cover embassy
                                                                       [Redacted] (b) (5)
operating expenses. The alternate cashier has a cash advance of                    in U.S. currency and less
     [Redacted] (b) (5)
than        in local currency. At times, the cashier recoups the alternate’s entire cash advance,
leaving no money available for the alternate cashier in case of an emergency.

            Informal Recommendation 13: Embassy Vilnius should allot funds to the alternate Class
            B cashier on a permanent basis.

Travel

        The embassy has not issued tickets for business- or premium-class air travel. The travel
unit adheres to the Fly American Act guidelines.

Unliquidated Obligations

       The embassy has done an excellent job of removing unliquidated obligations from the
books. None exists prior to FY 2011.




                                          22
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Vilnius should schedule and conduct weekly one-on-one
meetings between the Ambassador and section heads to review planning and reinforce more
open communication between the Ambassador and embassy staff. (Action: Embassy Vilnius)

Recommendation 2: Embassy Vilnius, in coordination with the Bureau of European Affairs,
should revise its political and economic reporting plan to include specific deliverables, staff
responsibilities, and timelines. (Action: Embassy Vilnius, in coordination with EUR)

Recommendation 3: Embassy Vilnius should implement a policy requiring American officers
and the grants coordinator in the public affairs section to take grants courses offered by the
Foreign Service Institute. (Action: Embassy Vilnius)

Recommendation 4: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources and the Bureau of Consular Affairs, should eliminate the rotation of
Embassy Vilnius consular positions 30-010126 and 14-022002. (Action: EUR, in coordination
with DGHR and CA)

Recommendation 5: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources and the Bureau of European and Eurasian Affairs, should designate the vice
consul position at Embassy Vilnius as a Russian-speaking position. (Action: CA, in coordination
with DGHR and EUR)

Recommendation 6: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of the Comptroller and Global Financial Services, should
remove the $67,500 requested for the combined financial management officer/human resources
officer position from the mission FY 2013 International Cooperative Administrative Support
Services target budget. (Action: Embassy Vilnius, in coordination with EUR and CGFS)

Recommendation 7: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs and the Bureau of the Comptroller and Global Financial Services, should
convert one information management position in Vilnius to an International Cooperative
Administrative Support Services position. (Action: Embassy Vilnius, in coordination with EUR
and CGFS)

Recommendation 8: Embassy Vilnius, in coordination with Embassy Sofia, the Frankfurt
Regional Support Center, and the Bureau of European and Eurasian Affairs, should transfer
human resources processing services back to Embassy Vilnius. (Action: Embassy Vilnius, in
coordination with Embassy Sofia, Frankfurt RSC, and EUR)

Recommendation 9: Embassy Vilnius, in coordination with the Bureau of European and
Eurasian Affairs, the Bureau of Human Resources, and the Foreign Service Institute, should
reclassify language designated positions from the 3/3 proficiency level in Lithuanian to the 2/2
level. (Action: Embassy Vilnius, in coordination with EUR, DGHR, and FSI)

Recommendation 10: Embassy Vilnius, in coordination with the Bureau of Human Resources,
should explore establishing an offshore retirement plan for locally employed staff. (Action:
Embassy Vilnius, in coordination with DGHR)
                                               23
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 11: Embassy Vilnius should revise its hardship differential report to reflect
accurate living conditions for American staff and submit the report to the Bureau of
Administration for a determination on whether rest and recuperation travel benefits are still
warranted. (Action: Embassy Vilnius, in coordination with A)

Recommendation 12: Embassy Vilnius should issue an unclassified and secure procurement
policy and post it on the embassy SharePoint site. (Action: Embassy Vilnius)

Recommendation 13: Embassy Vilnius should prepare a contracting officer’s representative
delegation memorandum and include this memorandum in all contracts. (Action: Embassy
Vilnius)

Recommendation 14: Embassy Vilnius should implement procedures requiring that all
designated contracting officer’s representatives be certified and take 40 hours of Foreign Service
Institute mandatory training. (Action: Embassy Vilnius)

Recommendation 15: Embassy Vilnius should conduct periodic reviews of its contract,
purchase order, and blanket purchase order files to determine whether they contain required
documentation and update the files as necessary. (Action: Embassy Vilnius)

Recommendation 16: Embassy Vilnius should dispose of excess information technology
property and update property inventory records. (Action: Embassy Vilnius)

Recommendation 17: Embassy Vilnius should inventory and consolidate all Dedicated
Internet Networks and register them with the Bureau of Information Resource Management.
(Action: Embassy Vilnius)




                                       24
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Vilnius should revise position descriptions for local
staff in the public affairs section.

Informal Recommendation 2: Embassy Vilnius should eliminate the first of its two daily press
briefings.

Informal Recommendation 3: Embassy Vilnius should include officers and locally employed
staff from other sections on the public affairs section’s grants award committee.

Informal Recommendation 4: Embassy Vilnius should implement the approved representation
plans submitted by embassy section chiefs.

Informal Recommendation 5: Embassy Vilnius should implement a plan to reduce utility
expenses.

Informal Recommendation 6: Embassy Vilnius should include information regarding value-
added tax reimbursements on its next scheduled retail price submission report, as required by
new Department of State regulations.

Informal Recommendation 7: Embassy Vilnius should establish a procedure whereby
supervisors who submit late evaluations on locally employed staff have this fact placed in their
own evaluation reports.

Informal Recommendation 8: Embassy Vilnius should include Federal Acquisition Regulation
clause 52.222-50 pertaining to trafficking in persons in all contracts.

Informal Recommendation 9: Embassy Vilnius should create an acquisition plan for FY 2014.

Informal Recommendation 10: Embassy Vilnius should explore other warehousing
alternatives, including leasing a single warehouse for all agencies, using the expedited logistic
program, and reconfiguring current space use for warehousing.

Informal Recommendation 11: Embassy Vilnius should dispose of and auction old and
obsolete inventory items.

Informal Recommendation 12: Embassy Vilnius should provide the facilities manager with
post occupation, health, and safety officer training.

Informal Recommendation 13: Embassy Vilnius should allot funds to the alternate Class B
cashier on a permanent basis.

                                       25
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                      Name        Arrival Date
Ambassador                                 Deborah McCarthy            02/2013
Deputy Chief of Mission                            Anne Hall           09/2010
Chiefs of Sections
 Management                                   Alboino Deulus          08/2010
 Consular                                    Anthony Beaver           08/2011
 Political/Economic                    J. Alexander Hamilton          07/2012
 Public Affairs                              Jonathan Berger          10/2010
 Regional Security                           Michael Twining          08/2011
Other Agencies
 Department of Treasury                       Thomas Stevens          07/2012
 Defense Attaché Office                        Jeffrey Jeanette       07/2011
 Department of Agriculture           Eric Weinberg (Warsaw)           08/2007
 Office of the Legal Attaché         Kirk J. Streibich (Talinn)       04/2006
 Federal Aviation Administration     Paul Feldman (Brussels)          11/1999




                                    26
                       SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ATM               Automated teller machine

DCM               Deputy chief of mission

Department        U.S. Department of State

DIN               Dedicated Internet Networks

EU                European Union

EUR               Bureau of European and Eurasian Affairs

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

ICASS             International Cooperative Administrative Support Services

ICS               Integrated Country Strategy

IM                Information management

LE                Locally employed staff

M/PRI             Office of Management Policy, Rightsizing, and Innovation

MRR               Mission Resource Request

NATO              North Atlantic Treaty Organization

OBO               Bureau of Overseas Buildings Operations

PAS               Public affairs section




                             27
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

           CONTACT THE
   OFFICE OF INSPECTOR GENERAL
              HOTLINE
        TO REPORT ILLEGAL
     OR WASTEFUL ACTIVITIES:


           202-647-3320
           800-409-9926
        oighotline@state.gov
            oig.state.gov

     Office of Inspector General
      U.S. Department of State
           P.O. Box 9778
       Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
